<html>
<title> - SHOULD WE PART WAYS WITH GPRA: A LOOK AT PERFORMANCE BUDGETING AND PROGRAM REVIEW</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  SHOULD WE PART WAYS WITH GPRA: A LOOK AT PERFORMANCE BUDGETING AND 
                             PROGRAM REVIEW

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY
                        AND FINANCIAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2004

                               __________

                           Serial No. 108-144

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                        U.S. GOVERNMENT PRINTING OFFICE

93-722                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
                   David Marin, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on Government Efficiency and Financial Management

              TODD RUSSELL PLATTS, Pennsylvania, Chairman
MARSHA BLACKBURN, Tennessee          EDOLPHUS TOWNS, New York
STEVEN C. LaTOURETTE, Ohio           PAUL E. KANJORSKI, Pennsylvania
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     Mike Hettinger, Staff Director
                 Larry Brady, Professional Staff Member
                          Sara D'Orsie, Clerk
          Mark Stephenson, Minority Professional Staff Member





                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 4, 2004.................................     1
Statement of:
    Breul, Jonathan D., senior fellow, IBM Center for the 
      Business of Government.....................................    28
    McTigue, Maurice P., Q.S.O., distinguished visiting scholar, 
      Mercatus Center at George Mason University.................    35
    Posner, Paul L., Managing Director, Federal Budget Issues, 
      Strategic Issues...........................................     6
Letters, statements, etc., submitted for the record by:
    Breul, Jonathan D., senior fellow, IBM Center for the 
      Business of Government, prepared statement of..............    30
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    55
    McTigue, Maurice P., Q.S.O., distinguished visiting scholar, 
      Mercatus Center at George Mason University, prepared 
      statement of...............................................    38
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........     3
    Posner, Paul L., Managing Director, Federal Budget Issues, 
      Strategic Issues, prepared statement of....................    10


  SHOULD WE PART WAYS WITH GPRA: A LOOK AT PERFORMANCE BUDGETING AND 
                             PROGRAM REVIEW

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2004

                  House of Representatives,
Subcommittee on Government Efficiency and Financial 
                                        Management,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Todd Russell 
Platts (chairman of the subcommittee) presiding.
    Present: Representatives Platts, Blackburn, Towns, and 
Maloney.
    Staff present: Mike Hettinger, staff director; Dan Daly, 
counsel; Larry Brady and Tabetha Mueller, professional staff 
members; Amy Laudeman, legislative assistant; Sarah D'Orsie, 
clerk; Mark Stephenson and Adam Bordes, minority professional 
staff members; and Jean Gosa, minority assistant clerk.
    Mr. Platts. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency and Financial Management 
will come to order. I appreciate everyone's attendance here 
today.
    Congress enacted the Government Performance and Results Act 
[GPRA], more than a decade ago to create an effective, 
efficient government that produced tangible results, results 
that would form the basis for budgetary decisions. GPRA was 
intended to serve as a firm foundation on which to build a 
structure of performance management.
    While GPRA was passed in 1993, it did not take effect in 
practice until the fiscal year 1999. Consequently, we currently 
have about 4 years of information on which to judge the act's 
effectiveness. GPRA continues to evolve as senior agency 
leaders better understand the requirements set forth in the act 
and are given the tools for its effective implementation.
    We are seeing progress, however. Agencies' strategic plans 
are becoming more useful. Agencies are becoming more 
comfortable and more competent at managing for outcomes, and 
agencies are now beginning to scratch the surface of linking 
performance to budget decisions. Needless to say, however, we 
still have a long way to go. Efforts to improve government 
effectiveness beginning with the Hoover Commission failed to 
achieve the important objective of linking performance to 
budgeting decisions.
    President George Bush's management agenda is the most 
aggressive attempt by any administration to successfully 
achieve this goal, and as I've said before, I certainly commend 
President Bush and his administration for embracing this 
challenge and really sticking with it over, now, 3 years.
    The administration's Program Assessment Rating Tool [PART], 
implemented for the first time last year, seeks to tie funding 
sources to outcomes at the program level. PART is a key tool 
not only in the President's management agenda, but also as part 
of the broader performance-based accountability effort 
encompassed by GPRA.
    GPRA and the President's management agenda are mutually 
dependent efforts which cannot fully succeed in the absence of 
the other. In other words, the program-by-program reviews 
demanded under PART and the broader strategic planning approach 
emphasized under GPRA are both equally important.
    With the 5-year phase-in of PART across all Federal 
Government programs well under way, Congress and the 
administration need to work together to ensure that the 
information gleaned from the PART reviews empowers executive 
and legislative leaders to make timely, well-informed and 
sometimes difficult programmatic decisions on behalf of the 
American public.
    Today we will hear from a panel of experts in the field of 
performance budgeting. Mr. Paul Posner, Director of Strategic 
Issues for the General Accounting Office and the author of the 
report released last week; Mr. Jonathan Breul, a senior fellow 
at the IBM Center for the Business of Government; and the 
Honorable Maurice McTigue, the director of the government 
accountability project at George Mason University's Mercatus 
Center.
    I certainly want to thank each of you for being with us 
today and also for your work with the staff of the committee in 
preparing for this hearing and the wealth of knowledge you've 
shared with all of us. I look forward to each of your 
testimonies.
    And I'm now pleased to yield to the gentleman from New 
York, Mr. Towns, our ranking member, for the purpose of making 
an opening statement.
    [The prepared statement of Hon. Todd Russell Platts 
follows:]
[GRAPHIC] [TIFF OMITTED] 93722.001

[GRAPHIC] [TIFF OMITTED] 93722.002

    Mr. Towns. Thank you very much, Mr. Chairman, for holding 
this hearing.
    At its most basic level, performance budgeting requires 
linking agency performance information with budgetary 
decisions. When done correctly, performance budgeting allows 
resources to be allocated according to an agency's stated goals 
and its results in meeting those goals. Unfortunately, various 
attempts at performance-based budgeting for the past five 
decades have produced, at best, mixed results in providing a 
better blueprint for aligning government spending with results.
    As the subcommittee prepares to hear from GAO on their 
recent assessments of the PART program, I remain skeptical that 
the administration's efforts to integrate performance 
information for budgetary decisions will be successful. As in 
the 2004 budget, the PART was used to review about 20 percent 
of all Federal programs for the 2005 budget with the goal of 
reviewing all Federal programs by 2008.
    As I've stated over and over again and, of course, also in 
many hearings, successful management initiatives require a 
sustained and concerted effort, along with mutual cooperation 
and understanding, between OMB and the Federal agencies. 
Furthermore, we must ensure that political ideology does not 
adversely impact the production of reliable and credible 
information or jeopardize the confidence of all stakeholders in 
the results.
    While I recognize that PART is a tool for the executive 
branch to better analyze Federal programs and outcomes, it must 
be used in concert with other performance-based assessments in 
order to be useful to others in both the agency and 
congressional arenas.
    As we enter into our second budget cycle and a new round 
agency reviews, I remain concerned that PART is usurping the 
statutory goals and objectives, and of course, I think that is 
to be a concern of all of us.
    Furthermore, the subjective nature of PART seems to 
negatively impact the amount of reliable data it provides due 
to chronic disagreement between OMB agency officials on long-
term performance measures of unreasonable thresholds in 
satisfying PART standards.
    While I am hopeful the 2005 program reviews were most--were 
more successful, I remain wary that the subjective nature of 
PART will limit both the quantity and quality of information.
    I look forward to hearing from today's witnesses on the 
results of the GAO's study of PART as the committee seeks out 
additional methods for improving its usefulness in the budget 
process.
    So, on that note, Mr. Chairman, I yield back.
    Mr. Platts. Thank you, Mr. Towns.
    If I can now ask our witnesses to come forward and remain 
standing to have the oath administered to you, and also any 
other individuals who will be advising you as part of your 
testimony, if they will stand as part of taking the oath.
    If you could all raise your right hands.
    [Witnesses sworn.]
    Mr. Platts. Thank you, and the clerk will note that all 
witnesses affirmed the oath. We certainly do appreciate the 
substantive written testimonies that you've provided and would 
ask if you're able to try and summarize those written 
testimonies in roughly 5 to 7 minutes before we get into 
questions and answers.
    For everyone's knowledge, we believe we have until about 3 
p.m. before the first round of votes on the floor may occur; 
and so we'll try to get through our opening statements and get 
into the Q and A as best possible, and we'll see where we are 
as to how the schedule will proceed once votes start on the 
floor.
    We're going to start, Mr. Posner, with you; and with each 
witness, I'd just like to share for everyone's knowledge a 
little bit of each witness' background.
    Paul Posner was named in 1996 as Director of Strategic 
Issues for the General Accounting Office, a position he still 
holds today. Before this position, he was Assistant Director of 
the Intergovernmental Relations Group, Associate Director for 
Tax Policy and Administration and prior to that, Director of 
the Federal Program Review for the New York City Budget Bureau.
    Mr. Posner, thank you again for being here, and if you'd 
like to proceed with your testimony.

STATEMENT OF PAUL L. POSNER, MANAGING DIRECTOR, FEDERAL BUDGET 
                    ISSUES, STRATEGIC ISSUES

    Mr. Posner. Thank you, Mr. Chairman. I'm pleased to be here 
today to discuss our work that we did for you and Congressman 
Tiahrt and Senators Voinovich and Brownback that resulted in 
the issuance of our report on January 30th.
    Since the 1950's, the Federal Government, as has been 
noted, has attempted several governmentwide initiatives to 
better align spending decisions with performance, what we call 
performance budgeting. PART is the latest initiative in a 
longstanding series undertaken to improve the link between 
performance and information in the budget process.
    GPRA, unlike many of its predecessors, has actually been a 
reform that has been sustained since its passage 10 years ago, 
and evidence strongly indicates that it's become more relevant 
than its predecessors.
    PART offers the potential to build on the infrastructure of 
performance plans and information ushered in by GPRA. In a 
historical sense, GPRA has succeeded in improving the supply of 
plans and information and measures; and we actually have a 
study forthcoming assessing the 10-year record of that.
    PART in some ways marks a new chapter in performance-based 
budgeting by focusing more explicitly on the demand side of the 
equation; that is, promoting the use of the information 
generated through GPRA's processes and other processes to more 
directly feed into executive branch budget decisions.
    Let me just briefly summarize the findings of our report. 
First, PART clearly helped structure OMB's use of performance 
information for its internal budget analysis. It succeeded in 
making the use of this information more transparent than before 
and stimulated agencies' interest in budget and performance 
integration.
    Moreover, it illustrated the potential to build on GPRA's 
foundation to more actively promote the use of performance in 
budget decisions. OMB should be credited with opening up for 
scrutiny and potential criticism its review of key areas of 
Federal program performance and making its assessments 
available on the Web site and other vehicles.
    Much of the potential value of PART lies not just in the 
funding recommendations but in the related program and 
management improvements. Although funding recommendations were 
related to PART recommendations, they were not linked in a 
mechanical and formulaic manner, nor should they be.
    Now it will be important for OMB to get on with the job of 
the agencies of following through on the daunting series of 
program analyses, recommendations and improvements that they've 
surfaced. As is to be expected in the first year of any reform, 
the first several years for that matter, PART is a work in 
progress, and we noted in our report areas where OMB can make 
improvements. Any tool that is sophisticated enough to take 
into account the complexity of the U.S. Government ultimately 
requires the exercise of judgment by users. Therefore, it's not 
surprising that we found some inconsistencies by OMB's staff in 
interpreting and applying this tool.
    The rating tool is a useful diagnostic instrument to 
address strengths and weaknesses, but it can be difficult to 
capture the effectiveness of complex programs in dichotomous 
yes-no answers or in a single rating number.
    Unlike a private business, government does not have a 
single bottom line nor do many of it programs. This doesn't 
mean that we shouldn't try to more systematically judge 
performance, but that we must recognize the multiple goals and 
dimensions when we do.
    PART provides an opportunity to more efficiently focus 
scarce analytic resources, to focus decisionmakers' attention 
on the most pressing policy issues and to consider comparisons 
and tradeoffs among related programs. At this point, we think 
that opportunity largely has not been addressed, that OMB 
remains committed to increasing the coverage up to 100 percent 
of all programs over the next several years. We think there are 
opportunities to more strategically use PART to focus on 
related groups of programs achieving common objectives.
    The first year of PART's assessment also underscored 
longstanding gaps in performance evaluation efforts through the 
Federal Government. One hope is that PART could possibly prompt 
greater attention to those gaps.
    The relationship between PART and the broader GPRA planning 
process is still evolving. Although PART can stimulate 
discussion on program-specific measurement issues, it is not a 
substitute for GPRA's strategic, longer-term focus on thematic 
goals.
    Although PART and GPRA serve different needs, a strategy 
for integrating the two could help strengthen both. The two 
should not be viewed as supplanting one another, but as 
complementing one another.
    PART really illustrates the new challenges and tensions 
prompted by the integration of performance in budgeting. It 
raises fundamental questions like whose interest should drive 
the integration and what frameworks and perspectives should 
drive it; ultimately, a combination of the best of both 
planning and budgeting, married in a synergistic way to promote 
better outcomes all around.
    While PART clearly serves the needs of OMB and the 
President in budget formulation, questions still remain about 
whether it serves the needs of other key stakeholders. If the 
President or OMB wants the PART to be considered in the 
congressional debate, it will be important for OMB to involve 
congressional stakeholders early in providing input on 
selecting programs, clarifying any significant limitations in 
the assessments; open up more about the kinds of issues 
addressed in those assessments; and initiate discussions with 
congressional committees about how they can best take advantage 
and leverage PART in authorization appropriations and 
oversight.
    Moreover, Congress needs to consider ways it can articulate 
its oversight priorities and agenda in a more systematic way.
    We made a number of recommendations in our report for OMB. 
I'll just briefly outline them.
    We've suggested enhanced guidance to improve definitions, 
better monitoring of recommendations and followup, and 
targeting the OMB reviews in a more strategic way. We've 
actually suggested reconsidering the goal of 100 percent and, 
instead, talked about a more strategic approach to target 
assessments on cirtical program and review related groups of 
programs on the tax expenditure side, as well as the spending 
side in the same year, there are things that need to be 
considered.
    As I've indicated, there is also a need to clarify the 
relationship between PART and GPRA. Improving the integration 
of these separate processes can help promote a more strategic 
focus for the PART assessments, and the GPRA planning goals 
could be used to anchor the selection and review of programs, 
both working toward common objectives.
    And finally, we suggested early on involvement of Congress 
and buy-in by the Congress itself and the various committees, 
because the impact of PART is not just on the President's 
decision, but ultimately Congress is going to need to be a 
partner in this if we want decisionmaking in the budget process 
to really be framed by this new initiative. We have recommended 
that OMB seek an early and meaningful dialog in that respect.
    Ultimately, PART raises the stakes for performance 
management. It holds much promise, but many risks. Budgeting is 
properly a political process where there are competing values 
and priorities. So, too, and equally contentious, are the 
decisions about how to frame the questions, which units to 
review, how to choose the focus of your budget decisions, how 
to choose your measures and goals. These are all issues where 
reasonable people can and should disagree, and as the stakes 
grow, potentially greater conflict can be expected. So much is 
at stake in the development of this process, our system of 
government with separation of powers, PART inevitably needs to 
become a more collaborative process among the branches to 
become sustained.
    This really is an opportune time for the executive and the 
Congress to carefully consider how both the agencies and 
committees can best take advantage and leverage the new 
perspectives coming from this reform agenda. In particular, 
PART could become a very useful tool for reexamining the base, 
which will become apparent as we go forward and address our 
fiscal problems in the Nation.
    The norm should be to reconsider the relevance or fit of 
any program in today's world for the future. The idea is, we 
need to start putting things on the table that heretofore have 
been accepted as part of the budget process without being 
examined.
    What's important is not the specific approach but rather 
the intended result of helping Congress better promote improved 
performance through broad and comprehensive oversight and 
deliberation.
    That concludes my statement.
    Mr. Platts. Thank you, Mr. Posner.
    [The prepared statement of Mr. Posner follows:]
    [GRAPHIC] [TIFF OMITTED] 93722.003
    
    [GRAPHIC] [TIFF OMITTED] 93722.004
    
    [GRAPHIC] [TIFF OMITTED] 93722.005
    
    [GRAPHIC] [TIFF OMITTED] 93722.006
    
    [GRAPHIC] [TIFF OMITTED] 93722.007
    
    [GRAPHIC] [TIFF OMITTED] 93722.008
    
    [GRAPHIC] [TIFF OMITTED] 93722.009
    
    [GRAPHIC] [TIFF OMITTED] 93722.010
    
    [GRAPHIC] [TIFF OMITTED] 93722.011
    
    [GRAPHIC] [TIFF OMITTED] 93722.012
    
    [GRAPHIC] [TIFF OMITTED] 93722.013
    
    [GRAPHIC] [TIFF OMITTED] 93722.014
    
    [GRAPHIC] [TIFF OMITTED] 93722.015
    
    [GRAPHIC] [TIFF OMITTED] 93722.016
    
    [GRAPHIC] [TIFF OMITTED] 93722.017
    
    [GRAPHIC] [TIFF OMITTED] 93722.018
    
    [GRAPHIC] [TIFF OMITTED] 93722.019
    
    [GRAPHIC] [TIFF OMITTED] 93722.020
    
    Mr. Platts. Next up is Mr. Jonathan Breul, who is a senior 
fellow and associate partner at IBM Consulting Services. Mr. 
Breul was formally a Senior Adviser to the Deputy Director for 
Management in the Office of Management and Budget. Mr. Breul 
also helped develop the President's management agenda, led the 
development in governmentwide implementation of GPRA and helped 
Senator John Glenn launch the Chief Financial Officers [CFO] 
Act.
    Mr. Breul, we again thank you for being here, and the floor 
is yours.

 STATEMENT OF JONATHAN D. BREUL, SENIOR FELLOW, IBM CENTER FOR 
                   THE BUSINESS OF GOVERNMENT

    Mr. Breul. Thank you and good afternoon, Mr. Chairman and 
members of the subcommittee. Thank you for inviting me to 
testify on the topic of performance budgeting and the Office of 
Management and Budget's Program Assessment Rating Tool [PART].
    Over the past decade, the Congress and several 
administrations have put in place a statutory framework for 
increasing the use of performance information. The attention of 
the Federal Government to strategic planning and the supply of 
performance information has increased substantially in the last 
10 years since the passage of GPRA.
    GPRA is doing exactly what was expected. It has laid the 
foundation for use of performance information, and as a 
consequence, the Federal Government has never been in a better 
position to make its budget decisions more informed by 
consideration of performance.
    As you indicated, good government advocates have called for 
performance budgeting for decades. First championed by the 
Hoover Commission in 1949, a Federal performance budget was 
intended to shift the focus away from inputs of government to 
its functions, activities, costs, and accomplishments.
    According to an October 2003 report of the IBM Center for 
the Business of Government, there's ample opportunity to use 
performance information at each stage of the budget process: 
not only in the Office of Management and Budget, but with the 
Congress, in the agencies, and with the audit community.
    Budget reviews have always involved some discussion of 
program performance. In the past, however, such discussions 
have not always been conducted in a rigorous, systematic, or 
transparent fashion. The Bush administration, however, has made 
linking resources to results one of the top five priorities of 
the President's management agenda, and OMB is using the PART to 
explicitly fuse performance information to the budget at a 
funding decision level.
    Importantly, the PART analysis enriches budget analysis but 
does not replace it. The relationship between a PART rating and 
the budget is not a rigid calculation. Lower ratings do not 
automatically translate into less funding for a program, just 
as higher ratings do not automatically translate into higher 
funding.
    The GAO report has documented two important actions that 
move the departments and agencies into performance budgeting. 
First, the PART renders a judgment whether programs are 
effective by systematically and transparently assessing program 
management and the actual results--in other words, what's 
happened.
    Second, the PART enables decisionmakers to attach budgetary 
and management consequence to those judgments, particularly to 
programs that cannot demonstrate that they are effective.
    This linking of management and budgetary decisions to 
program performance was exactly a purpose of GPRA. Past 
initiatives such as President Johnson's Planning, Programming 
and Budgeting System [PPBS], tended to devise unique structures 
to capture performance information. These unique structures 
ultimately proved difficult to link to congressional 
decisionmaking and congressional budget justifications and 
caused their efforts to fail. GPRA, on the other hand, requires 
agencies to plan and measure performance using the same 
structures which form the basis for the agency's budget 
requests, namely program activities.
    The PART instrument and the entire endeavor of budgeting 
results are still very much a work in progress. It is far from 
perfect, but the PART remains an important step in changing the 
way Federal managers think about their responsibilities. It 
places the burden of proving effectiveness squarely on their 
shoulders.
    With further improvement in use, it will provide incentives 
for Federal agencies to make their programs more effective. It 
can provide meaningful evidence to the Congress and other 
decisionmakers to help them inform funding decisions and to 
identify flaws in underlying statutes that undermine 
effectiveness.
    To make further progress, agencies must prepare the way for 
performance budgets with their appropriators and other 
congressional contacts. A number of steps are recommended. One 
is that they need to better understand both their use and the 
congressional use of performance information; second, agencies 
should consult their appropriators about the outline and sample 
justifications; and third, agencies should assure their 
appropriators that all of the information and all of the tables 
that the appropriators will be using will be included in the 
budget justifications and show them where that information can 
be found.
    The use of performance information should not be instead of 
the other information; it should be in addition to enrich that 
debate.
    Finally, and in conclusion, performance budgeting is the 
next logical step in the implementation of results-oriented 
government. It will not be the answer to the vexing resource 
tradeoffs involving political choice. It does, however, promise 
to modify and inform policy decisions and resource allocation 
by shifting the focus of debates from inputs to outcomes and 
results. Technology-enabled performance budgeting tools also 
now available to support agency decisionmakers and make the 
development and presentation of the budget all the more easy.
    Pursuing a systematic use of strategic and performance 
planning, budgeting and financial information is essential to 
achieving a more results-oriented and accountable Federal 
Government. Thank you.
    Mr. Platts. Thank you, Mr. Breul.
    [The prepared statement of Mr. Breul follows:]
    [GRAPHIC] [TIFF OMITTED] 93722.021
    
    [GRAPHIC] [TIFF OMITTED] 93722.022
    
    [GRAPHIC] [TIFF OMITTED] 93722.023
    
    [GRAPHIC] [TIFF OMITTED] 93722.024
    
    [GRAPHIC] [TIFF OMITTED] 93722.025
    
    Mr. Platts. And before we go to our next witness, I'd like 
to recognize our vice chair, the gentlelady from Tennessee, 
Mrs. Blackburn, has joined us, as well as the gentlelady from 
New York, Mrs. Maloney. Thank you both for being with us.
    Our next witness, the Honorable Maurice McTigue joined the 
Mercatus Center in 1997 as a distinguished visiting scholar 
after a career as a member of the New Zealand Parliament, 
Cabinet Minister and Ambassador. Prior to Mr. McTigue's arrival 
in the United States, he led a successful effort to reconstruct 
New Zealand's public sector and its stagnant economy. Today, he 
is the director of the government accountability project at the 
Mercatus Center.
    We appreciate your being with us this year, as you were 
last year, and for your continuing work in the area of 
government accountability.

STATEMENT OF MAURICE P. McTIGUE, Q.S.O., DISTINGUISHED VISITING 
      SCHOLAR, MERCATUS CENTER AT GEORGE MASON UNIVERSITY

    Mr. McTigue. Thank you very much, Mr. Chairman, and thank 
you for the opportunity of being here to present in front of 
your committee once again. And I thank the other members of the 
committee, as well, for their interest in this subject, because 
at a time of huge government budgets and huge deficits, then I 
think the work that you are instigating here will have 
incredible momentum for the Congress and for the American 
Governments of the future.
    I want to start by taking a slightly holistic view of what 
is in progress here. What is in progress is a very fundamental 
change in the process of accountability in, say, the American 
Government, and that fundamental change is moving from a 
measurement of money spent and how money is spent to an 
additional component. And that additional component is what 
public benefit flowed from the expenditure of those moneys.
    For the political process, identification of the public 
benefit that flowed from the expenditure of moneys is indeed 
the most important part of being in politics, because then it's 
possible for elected representatives to be able to see clearly 
how they can affect the change that they believe is desirable 
for their constituencies.
    The foundation of that change in the American Government 
was the passage of the Government Performance and Results Act, 
and while that required government agencies to produce 
strategic plans and identify where they intended to go in the 
future, I think the most important part of that act was that it 
required them to produce evidence of what benefit flowed from 
those particular activities.
    In considering issues like this, in my view, it's important 
to separate process from principle. The principle at stake here 
is being able to identify for the American people what public 
benefits are arising from governmental activity. When you look 
at the different agencies of government, there are, in 
government, always some control agencies and there are delivery 
agencies. In the U.S. Government I would identify the control 
agencies as the Office of Management and Budget, which controls 
resources; the White House, which controls policy; and the 
Office of Personnel Management, which controls the capability 
of organizations.
    When you look at the PART process, the performance 
assessment rating tool, I think the most important part of that 
scrutiny is to remember that it is a tool. A tool serves a 
purpose for you; it is meant to produce a particular result. 
There is nothing important about the tool in its own right. 
It's what it produces for you that is important.
    When you look at what was generated by GPRA, information on 
the public benefit that arose from programmatic activity, then 
the next question and what I call the next wave of change in 
government is, ``What do you do with that information?'' 
Clearly you need to use that to influence decisions about how 
you'll allocate resources and how you'll maximize the public 
benefit.
    To be able to do that, it's essential for a control agency 
like OMB to question whether or not the information produced by 
delivery organizations is indeed accurate and clearly portrays 
what benefit is flowing from that activity. They have chosen to 
design this tool called PART to aid them in that particular 
process. It is not an end in its own right. What it does is 
help confirm whether or not these activities are effective in 
what they do and what quantity or public benefit they produce.
    I would like to see that tool or the development of another 
tool that would allow the comparison of different activities 
that are focused on the same goal, for example, all of those 
activities focused on improving literacy, so that you could 
then compare which of these tools is going to give us the 
maximum return and improve literacy among people, rather than 
continuing to fund programs that produce little or no benefit. 
That is indeed a benefit forgone by American society if you 
don't indeed do that. So taking it wider, in my view, is an 
important part of the process as well.
    I have heard considerable discussion over the last 18 
months about whether or not there need to be amendments to the 
legislation that sets this process up. I would very strongly 
advise that it is counterproductive to try and codify tools. It 
makes a presumption that the tool is already perfect, and that 
is not true. There is always the opportunity for improvement. 
But what can be codified are the results expected from the 
application of a tool. In other words, what are the principles 
or the values that you are trying to preserve and expand?
    So in looking at whether or not there is an opportunity for 
giving guidance by legislation, it might be possible to look at 
these things. For example, OMB shall examine the performance 
history of programs; it might use different tools from time to 
time in that process, but there should be a requirement that it 
examines that performance history.
    That examination will confirm and quantify the public 
benefit resulting from programmatic activity. I think that's 
important. If the tool doesn't do that, then I don't think 
there's any point in doing it.
    It should be required that OMB, when building the budget 
will compare the results of programs addressing the same 
outcome/public benefit so that you know whether or not you are 
getting the maximum in improvements in literacy rather than 
funding programs that are currently not achieving what you 
expect of them.
    Then that you might codify that OMB will release this 
information to the public in a timely manner, because I think 
that information that comes from an examination like this, if 
it's done in private, loses most of its effectiveness. The fact 
that it becomes public allows people like yourselves to pick 
that information up and question as to why funding is still 
being directed to this program where there are clearly programs 
that produce superior results.
    So in looking at the codification of any of these 
processes, I think that my advice would be, move carefully, but 
move in the direction of preserving the principles and the 
intent of what I see as an evolutionary process and making 
certain that the center point in that progress is always what 
is happening to the public benefit.
    Thank you for the opportunity of being here, Mr. Chairman.
    Mr. Platts. Thank you, Mr. McTigue.
    [The prepared statement of Mr. McTigue follows:]
    [GRAPHIC] [TIFF OMITTED] 93722.026
    
    [GRAPHIC] [TIFF OMITTED] 93722.027
    
    [GRAPHIC] [TIFF OMITTED] 93722.028
    
    [GRAPHIC] [TIFF OMITTED] 93722.029
    
    [GRAPHIC] [TIFF OMITTED] 93722.030
    
    [GRAPHIC] [TIFF OMITTED] 93722.031
    
    [GRAPHIC] [TIFF OMITTED] 93722.032
    
    [GRAPHIC] [TIFF OMITTED] 93722.033
    
    [GRAPHIC] [TIFF OMITTED] 93722.034
    
    Mr. Platts. I appreciate again all of your testimonies, and 
we'll proceed now to questions. For the most part, we'll try to 
stick to each of us having about 5 minutes for the initial 
round, and then we'll come back for a second round as time 
allows with votes and Members' questions.
    I'm going to maybe kick it off with kind of a broad 
discussion. All three of you touched on the interaction of GPRA 
and PART, and there seems to be some confusion within the 
agencies that are implementing PART as to how GPRA and PART 
interact with each other.
    And the second--I guess whether they are to complement each 
other. Has PART kind of just taken over what was GPRA's 
statutory requirement.
    And then what role OMB is playing in trying to convey the 
right message, that these are not in place of the other, but to 
complement each other.
    So I'd appreciate if each of you could expand on your 
assessment of how the agencies are actually embracing both the 
GPRA strategic plan approach hand in hand with PART, and if 
there's any one agency or department that seems most 
problematic with that concept.
    Mr. Posner.
    Mr. Posner. I think not only are they complementary. It's 
fair to say that if GPRA didn't exist to support PART, it would 
have had to be invented. In other words, PART really rests on 
the GPRA foundation and earlier reform efforts.
    Each of these efforts brings some value added to those that 
follow. GPRA has a broader planning focus, and as a result, it 
focuses on broader program goals and policies. What GPRA has 
been challenged to do is to root itself into the day-to-day 
decisionmaking process. PART clearly offers the potential to 
link that up. The question is, how do you do that while 
preserving the kind of unique perspectives that GPRA provides, 
that breadth of perspective, the potential cross-cutting focus.
    And another important value that GPRA serves, which is the 
mandate in the law to involve all stakeholders, including the 
Congress in particular. This is very important as we go forward 
and think about managing--merging performance in budgeting, to 
really focus on whose interest is served. I think in our system 
if the result is not perceived to be the result of a consensus 
among stakeholders, then I think you threaten to undermine the 
sustainability of the information.
    The President clearly finds utility from PART, and it's 
clearly been useful in providing a lot of good public 
information. The question going forward is, can it be 
sustained, and that's very much a question of how credible and 
supported will it be in the community as well as, of course, 
most importantly, here in the Congress.
    Mr. Platts. Is GAO--are you seeing, though, that there's a 
problem in that theory being embraced by the actual departments 
or agencies that are implementing PART hand in hand with GPRA, 
or not implementing it hand in hand?
    Mr. Posner. What we've seen is the potential for a problem 
at this point. We've seen guidance from OMB that encourages 
agencies to adopt following PART review, PART measures and 
incorporate them in the GPRA plans, which is appropriate 
potentially. But what we're hearing from agencies is the 
guidance suggests replacing the GPRA measures with the PART 
measures. And, remember, we're dealing with really two 
complementary units of analysis that don't have to replace one 
another.
    The concern is that seems to be--at least the message that 
is coming across and that's prompted a lot of concern fueled in 
part by the A-11 guidance--is that the annual performance plans 
are going to be subsumed in a performance budget. This could 
potentially be useful as long as the substance of the annual 
plans are preserved, which goes back to the measures and goals 
that are settled on in the planning process.
    Again, it raises the concern that there's a narrowing of 
the process to focus more on the decision frames and measures 
that are useful to OMB and not necessarily those that are 
useful to other stakeholders in the process.
    So at this point there is a potential. We've set a marker 
out that we can all watch. We have not seen the 1995--fiscal 
1995 plans or the performance budgets yet, and so it remains to 
be seen how that is actually played out.
    Mr. Platts. Mr. Breul and Mr. McTigue, if you would like to 
comment.
    Mr. Breul. I have a bit more optimism than Mr. Posner. The 
PART and even GPRA at this point are still on a shakedown 
cruise. These are still new, the PART in particular. Agencies 
are having--a challenge with the burden of proof shifted to 
them to prove the program's worth. In the past there had always 
been a presumption that if there wasn't a challenge from 
outside or the OMB, that programs did work. The PART has 
shifted the burden of proof to the agencies to provide some 
proof points that in fact their programs do produce results. 
That's been a heavy lift for some of them and a bit of a 
challenge.
    The use of the PART has also been done in a very clear, 
systematic, and rigorous fashion; and the fact that the 
administration has been relentless in its pursuit of it, going 
20 percent and another 20 percent and intending to push on, I 
think has surprised and perhaps disappointed some of the 
agencies. They may have thought they could escape.
    Finally, the fact that this is having a consequence 
attached to it, has made it a serious game and one in which, 
again, the agencies are finding out that this matters.
    My optimism, though, stems from the fact that--this year 
remarkably, it seems to me--almost every agency is going to be 
submitting a performance-based budget to the Congress in its 
congressional justifications. They aren't just doing so with 
OMB in the material they sent last September, but with the 
documents that are coming up to the Hill right now are in a 
performance-based format.
    I went through the Web this morning and I looked at four 
agencies in particular--NASA, Transportation, Labor, and 
Energy--and remarkably, those congressional justifications are 
structured on the strategic goals of GPRA. They lay out the 
objectives that are being set to meet them. They describe the 
organizations that are going to be deployed to fulfill those 
objectives, they describe the programs that have been enacted 
by the Congress, and they request resources for those programs. 
And they discuss the PART scores that relate to those programs.
    Now, that's just four, and I took a quick look this 
morning, and I haven't had a chance to read them because 
they're heavy documents, but I find that very encouraging. And 
to answer some of the concerns, that takes the matter to the 
Congress where, of course, there's going to be a dialog. And 
there are, of course, going to be differing views, and 
adjustments will be made going forward, as they should.
    So I'm rather encouraged at this point, and I've got my 
fingers crossed that we're going to see more progress.
    Mr. McTigue. And the comments that I would make, Mr. 
Chairman, are these: That you must always expect that the 
process of accountability will be a contest. By definition, 
accountability is that process by which we have to expose or 
disclose to our peers, those who are entitled to know our 
performance. And frankly, when people question that 
performance, we're going to react. So the fact that there is 
rigor in this process is not something that should be 
discouraged. I think that is healthy.
    In the final resolution, the agency itself, the delivery 
organization, by law, has the power to decide what will go in a 
strategic plan; and the activities that are going to achieve 
the goals are often laid down by Congress or by policy. And OMB 
in its own right can't change those things, but OMB's role is 
to decide that we are purchasing from you, Mr. Program Manager, 
literacy programs that will lift the level of literacy in this 
community or among these people, and we expect to get exactly 
that from them: improved literacy. If you cannot demonstrate 
that to us, then we're going to say we won't fund you until you 
can show us some measures that will indeed justify our 
allocating this money.
    I think that those are suitable subjects for debate, and 
that they should be debated rigorously.
    So on one hand, OMB has to be satisfied that it's going to 
get what it is purchasing. On the other hand, the organization 
has control over its own destiny through both its laws and the 
policy under which it works.
    Mr. Platts. I want to yield to the ranking member, Mr. 
Towns, and my hope--I try to be optimistic and hope that your 
reference to the two departments--four agencies that you 
mentioned, that's exactly what we'll see happen between GPRA 
and PART; because I see them as a wonderful one-two approach of 
strategic planning--here are the programs that are meant to 
fulfill that plan, and then here's an assessment of how they 
are doing. And if they are not successfully fulfilling the 
broader plan, we need to look at changes.
    As I think we all agree, we are early in the process, and 
hopefully, as we go forward, I think the very encouraging 
aspect is this administration's steadfast approach to this 
issue and its being a priority of the President and his senior 
advisers that this is going to be something they're going to 
stick with.
    So, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me just 
ask either one--if I could get a response from all of you, 
really.
    Do you care to offer some specifics on the information OMB 
can provide to Congress that might be beneficial to both the 
authorizers and the appropriators when it comes to the annual 
budget process? What can OMB offer?
    Mr. Posner. Well, I think, arguably because of PART, the 
kind of information that is being offered is substantially more 
transparent than before. We have last year--in 2004, a volume 
with each--for each program review, 234 programs reviewed last 
year. There was a page or two that not only provided the 
response, but the rationale for the response for each of the 
major question areas in the PART and the kind of 
recommendations and followup areas that OMB and the agencies 
are going to pursue.
    That's a level of information about the results of the OMB 
process that we have not seen before. Now it's on CD-ROM, 
attached to the budget. So I think we have a lot more 
information on the decisions that OMB have made.
    The question remains, what's the unit of decisions that 
we're being presented? How is the OMB framing the decisions? 
And what we are getting are agency-by-agency, kind of very 
specific program-by-program evaluations. I think the question 
for the Congress is, is OMB or the Congress positioning 
themselves to look at related programs together? For example, 
low-income housing outcomes cut across the programs, the 
agencies, even the tools of government where you have tax 
expenditures and other programs. Are we getting reviews that 
are organized along those lines to help us see how related 
groups of programs are achieving common goals? And so far the 
answer to that is ``no.'' And that's not specific just to this 
year; that's a chronic problem.
    Mr. Breul. I would agree on the question of information. 
What you're seeing now is a dramatic revealing of the framework 
that is being used to question the agencies, the information 
provided and the judgments and analyses that have been rendered 
by the OMB officials. It's, in fact, been a traumatic exercise 
for most examiners. Those who have been there longer than 2 
years are not familiar with having the format of their 
questions and the answers that have been arrived at shared with 
the public and shared in congressional justifications. They've 
never done that in the past.
    This has been unprecedented, and as Mr. Posner suggested, 
if you look at the budget this year, there's a little envelope 
in the back page of the budget document with a CD-ROM that's 
got more material than you can look through in an afternoon. 
It's complete detail on every program that has been subject to 
the PART review, and full of the data, the justifications, and 
the rationale for the decisions on how they're ranked. So it's 
an impressive body of information that, again, gives everybody 
a fair start at arriving at some understanding of what's going 
on.
    Mr. McTigue. My answer to you would really be an answer 
that I would have looked for as a politician myself.
    The first thing that I think you can expect to get from 
this process is that it will tell you those programs that are 
succeeding and at what level they are succeeding. It will tell 
you another group of programs where the results are unknown. 
They may be succeeding or they may not be succeeding, but at 
the moment they're unknown.
    One of the encouraging facts is that the number of unknowns 
this year has dropped significantly from the previous year. So 
the process is having some telling effect on agencies, in that 
they are moving out of the unknown category.
    The third thing it will tell you is that this program does 
not provide any measurable public benefit. That's very valuable 
information for the politicians and the political process, to 
either say, let's defund that, if it doesn't work; or let's 
give them a grace period, at which time they can show they will 
perform at the level of the other programs we're currently 
funding.
    Mr. Towns. Thank you very much. I'm skeptical because 
previous attempts at performance-based budgeting have failed 
when it came time to either implement programmatic reforms or 
budgetary decisions.
    Can anyone offer me some perspective as to why PART will be 
more effective if it remains specifically as an administration 
tool and not incorporated into the budget process?
    Mr. Posner. That's an excellent question. I think some of 
the previous initiatives, like ZBB and PPB, were kind of 
``build a bridge and expect they'll come''; and in fact, the 
budget process went along its own historic way, and there was 
no effort to reach out and link up to it.
    I think what PART--what GPRA started really, was to 
recognize that this would not be sustainable if this was not 
linked to the process by which we make our annual resource 
allocation decisions, and GPRA at least required the plans to 
cover all the programs in the budget.
    What PART is doing now is taking the base of GPRA and 
force-feeding that more into the budget decisionmaking process.
    Now, the question you raised I think is the most important 
one, which is the budget decisionmaking process is not just the 
President's process; it's a congressional process. And the 
question is, can a process that's oriented to one actor be 
viewed as credible by all the other actors in the system? And 
that's absolutely where we are right now. That's the challenge 
facing OMB and the Congress.
    In our report we suggested that Congress needs to think 
more systematically about structuring, planning for oversight 
and its priorities to be a more active participant, to join up, 
than it has been before.
    Mr. Towns. And my time has expired, Mr. Chairman, but I'm 
just wondering how the appropriators would react to this. 
Anyway, that's another issue.
    Mr. Platts. It's on my list to come back to.
    The gentlelady from Tennessee, Mrs. Blackburn.
    Mrs. Blackburn. Thank you so much. I think we all were 
wondering how those appropriators would react. Let me just 
follow along with that.
    You know, I'm always amazed with these discussions that we 
have, that it has taken this long for accountability to be an 
issue, and I am always reminded, when we're talking about PART 
and GPRA, of a response that was made shortly after I came to 
this committee. We had a hearing and someone from an agency, 
when I inquired about a time line, said, oh, we don't have a 
time line for the project; we have a continuing appropriation. 
And how offended I was on behalf of my constituents that they 
felt that way, because I do think that effectiveness and 
efficiency and accountability are very important.
    And I thank each of you for the information pertaining to 
that you bring to us.
    One question that has come--that I was sitting here 
thinking on and kind of following my colleagues' remarks here, 
when you're looking at PART and GPRA and you're looking at the 
performance-based initiatives and performance-based budgeting, 
how beneficial would it be to incorporate a zero-based 
budgeting exercise with the agencies as they go through 
building this budget if they're going to use PART and access 
that data as a ratings tool?
    And, Mr. McTigue, as you're talking about their outcomes 
and the delivery that they have, the benefits if they went back 
to zero; and as we talk about moving the budget process to 
something that is an equitable, deliverable for the taxpayers, 
if we go back and move away from baseline into more of a zero-
based format.
    Mr. Posner? We'll just go straight down the line.
    Mr. Posner. I think that conceptually the PART in fact is 
very much in line with the zero-based concept, because it 
departs from budgeting on the margins. We're not talking about 
increments of five or up or down. The PART addresses the whole 
program by its roots, and we're saying, how well is it doing, 
what kind of administration and cost structure does it have, 
and what are we getting for results.
    So the conceptual basis of PART supports a more, whether 
you call it zero-based or reexamination of the base kind of 
process. That's got to be a fundamental part budget process 
going forward when we look at the long-term fiscal challenges 
we face.
    Now, having said that, what we learn--one of the things we 
learned from the last zero-based budgeting exercise is, if you 
try to do everything, you're going to completely exhaust the 
system and it will fall on its own weight. And that's one of 
the reasons that we're concerned about the goal for 100 percent 
coverage of the PART, and reporting programs on part of new 
programs. I think not only does it burden analytic resources at 
OMB and the agencies, but frankly, it doesn't focus 
decisionmakers as much as they need to be focused.
    In other words, if you can think of related groups of 
programs like the authorization cycle up here that we are going 
to do a sunset review of them and have PART geared to 
supporting a congressional reauthorization process, that is the 
kinds of thing that might be more targeted and get more 
attention.
    Mrs. Blackburn. Thank you, sir.
    Mr. Breul. The two points that you bring up about looking 
at the base have the virtue of ensuring that no program is 
going to escape this analysis and that you look at the entire 
set of resources being allocated. Both the PART and GPRA are an 
invitation to do. They are useful tools to do that. The scores, 
for example, were not, a score of just the marginal dollars put 
into a program but relate to an entire program's administration 
and the set of results that are being achieved.
    The workload problem is a serious one and that's indeed why 
the administration chose to do 20 percent of the programs a 
year. To put every program all at once through such a review 
would have just overwhelmed everyone. And that is why I think 
there is quite a bit of virtue of moving through on a 20 
percent basis to cover all, to make sure that no program 
escapes this kind of review, but that you do so in increments 
that are manageable.
    But the analysis that is coming up now, and the ratings, 
are not, as I said, focused on the margin of delta of the 
additional budget resources, but look at entire programs. So it 
is an invitation for the appropriators to take that analysis 
and make their own judgments. Whether they choose to do is what 
we will be seeing this season.
    Mr. McTigue. In my view, speaking both from a theoretic 
point of view and also from practical experience, I think there 
is a slightly different way of approaching your problem which I 
think is likely to be more successful. If Congress and the 
administration were to say to agencies, ``we're going to fund 5 
million people moving from illiteracy to literacy this year,'' 
and then you had a variety of different programs that were 
contesting for the pool of money to do that, I think you would 
get exactly what you are talking about now, a review on the 
basis of which are the most effective mechanisms that we have 
to move people from an illiterate state to a literate state.
    If you did exactly the same with long-term unemployed 
people, ``we are going to fund 5 million long-term unemployed 
people back into employable skills and work,'' then you would 
look at a range of programs that would be likely to be 
effective in doing that and have a contest for the dollars. In 
those circumstances, you don't have to have the same rigor 
because what you are really doing is you are moving to a 
purchase of things of value and away from an allocation of 
money. Governments have traditionally allocated moneys to 
activities without too much of a focus what we get in return.
    To answer one of Mr. Towns' questions from before, the 
difference in this process in my view is this: That it focuses 
on an outcome that is determined as a public benefit. The 
previous procedures have tended to focus on results that might 
be you served this number of people; whether you cured their 
problems or not was not a factor in the equation. In this 
process you are talking about curing the problem at the same 
time. If it is about hunger, it is moving people off the lists 
of being hungry, it is not just feeding them every day.
    I think outcomes are one of the important ingredients and 
that outcome is clearly defined as a public benefit, and then 
you are able to say to different programs we could not afford 
to give away the public benefit of funding you, when somebody 
else is getting twice as many people into literate States.
    Mrs. Blackburn. Thank you.
    Mr. Platts. Thank you, Mrs. Blackburn. Mr. McTigue, in 
reading your written testimony, that one sentence that you 
reiterated captures the essence of where we are going to hold 
recipients of tax dollars accountable for their public benefits 
produced, not simply that they can account for where the money 
went. I think that is exactly what it is about, and the benefit 
that will come from PART being well embraced and implemented.
    I recognize the gentlewoman from New York Mrs. Maloney for 
the purposes of a question.
    Mrs. Maloney. Mr. Chairman, I would like to put my opening 
statement in the record.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] 93722.035

    Mrs. Maloney. Just not that I was a cosponsor of the 
original legislation in the 103d Congress and it was the first 
bill that I managed on the floor of Congress, the former 
Majority Leader Armey, this was one of his areas, that building 
accountability into government was a main focus of his.
    I would like to ask the Honorable Maurice McTigue, I am 
very, very concerned about not having accountability in the 
intelligence of the country. We are talking about programmatic 
and we are building in accountability and I support that. But 
now we are having all types of secret reviews on what went 
wrong with the American intelligence. And I was wondering if we 
could have the same type of GPRA goals and framework built into 
the intelligence gathering of the country.
    And also building in dissent. Say there are five 
intelligence communities--I am only repeating what I have read 
in the papers, that the CIA said that they told this review 
group that there was no weapons of mass destruction, there was 
no uranium, etc. But what we are grappling with now and it is 
very much on my mind, September 11--I represent New York City 
and lost 500 constituents--what we are looking at is how do we 
improve our intelligence?
    Could we take a GPRA type framework or a PART framework and 
build it into a guidelines and framework for better 
intelligence gathering that is analyzed, that dissent is more 
transparent in the decisionmaking process, if you understand 
what I am saying?
    Mr. McTigue. I think that really gets to a very significant 
issue that moves out from the things that are really easy to 
do. Like did you make the right payments to the right people 
and did you get people from----
    Mrs. Maloney. How many people got off welfare? How many 
people got a job? That is easy. But now we are looking at 
different ways to make our intelligence better and if we had a 
performance based situation it might help us be better in the 
future.
    Mr. McTigue. My view with regard to all of these things is 
first and foremost can you identify the public benefit that you 
are seeking to address? And in this field, the public benefit 
is risk. Can you diminish the risk to American citizens from 
terrorist activity or from other activities? And I think that 
what should be required of intelligence agencies is that they 
should be much better at risk identification and then measuring 
by how much they have diminished that risk. They will tell you 
that is impossible but the banking industry and the insurance 
industry have done it for as long as they have existed and have 
done it reasonably successfully.
    That also in my view enables them to be able to deal with 
the issue of what of those matters should remain official and 
what should it be required to identify in terms of public 
knowledge. I would be quite happy if the FBI or the CIA could 
say to us that the risk of terrorist incursion into the United 
States has diminished by 25 or 35 percent over the last year. 
That would make me feel more comfortable, rather than that I 
have expended X quantities of dollars and deployed X numbers of 
people, but I don't know what that means, whether that means I 
am safer or less safe. It is a tough test but I think it is a 
test that they should be required to meet.
    Mrs. Maloney. Do you think they could do that? In your 
experiences did you have other governments that you reviewed 
that analyzed risk and required intelligence to be more 
transparent in what they are achieving or not achieving?
    Mr. McTigue. The answer is yes, but it is an inexact 
science. There will be things that will happen from time to 
time that nobody foresaw so that was a risk that they did not 
identify and they didn't counter it. But so are most other 
things inaccurate and mistakes will be made. But yes, I think 
there has to be a yardstick by which you can say we are getting 
value for these things to give you a comparison.
    Some time ago we had--the Mercatus Center had some 
discussions with the Nuclear Regulatory Commission about their 
strategic plan and their goals. Their goal is zero incidents. 
The only thing that is satisfactory is that there is no 
accident, no exposure. So they declare 100 percent success 
every year. But that doesn't tell us very much.
    What would be more useful is if they could tell us that the 
risk of accident has gone up or down. It might have gone up 
after September 11. I'd like to know by how much they have 
mitigated that over the ensuing period of time. I think it is 
not unreasonable for that to be public knowledge.
    Mrs. Maloney. Anybody else like to comment?
    Mr. Breul. I haven't myself looked at the intelligence 
community material but my recollection is that they have been 
subject to GPRA and going through that sort of analysis on a 
regular basis. It, of course, is not shared on a CD-ROM but it 
is part of the normal dialog between them and their clients, 
whether it is the leaders in the Pentagon, soldiers in the 
field, or others that rely on their product.
    Mrs. Maloney. And do they allow for dissent to be part of 
the record?
    Mr. Breul. I haven't seen the record, so I can't tell you. 
But I understand they do follow the GPRA approach.
    Mrs. Maloney. Any other comment?
    Thank you.
    Mr. Platts. I want to come back to something that was 
touched on I think by all of you in your written testimony, and 
Mr. McTigue, you captured in your opening statement, I think 
very well, the issue of codification of this tool or this 
process. And if we are looking at trying to expand the 
statutory requirements to complement GPRA, that we not codify a 
specific tool but just the requirement that there be program-
by-program reviews.
    I first would be interested if either of the other two of 
you would like to expand on that, the aspect of codifying a 
program-by-program review in GPRA so we go from a statutory 
strategic plan to a statutory program review, and if we're 
going to do that--and then, Mr. McTigue, maybe you want to join 
in--should it be all programs over a period of at least once 
every 5 years or should it be more targeted as we have heard 
Mr. Posner address and ensure strategic prioritization of what 
programs have that requirement? And I use the analogy of the 
Improper Payments Act where there is a certain percentage or 
dollar amount involved, a higher standard requirement kicks in. 
So I would be interested in your perspective.
    Mr. Posner. The goal is to think about how we sustain this 
going forward. There are a lot of elements here that don't 
necessarily reach to codification. You have continued to 
improve the evaluation data, the instrument that is used, the 
executive commitment of buy-in by the agencies, better using 
analytic resources through targeting, I think, and frankly, 
better using a lot of the existing authorities that we have.
    In other words, GPRA provides tremendous information to the 
Congress that sometimes is used, but as we have all 
acknowledged, there is a lot more that could be done with it. 
Rule 10 in the House provides for each committee at the 
beginning of a Congress to formulate an oversight agenda. That 
is an existing process that could be used to help Congress more 
systematically address its performance issues and hook up with 
this process.
    Frankly, one of the issues that we have talked about over 
the years is that GPRA has a governmentwide performance plan 
that has frankly never really fulfilled its potential across 
administrations, which would do a lot of--at least be the 
foundation for what Mr. McTigue was talking about in terms of 
the looking at related groups of programs, addressing common 
outcomes, and across all sides of the budget, and developing 
performance standards and statements, rather that put all of 
those in a common plane.
    That could be extremely useful just as a source of 
information as well as possibly frame the decisionmaking 
process itself. So there are, I think, a lot of tools that we 
already have that can make this process more sustainable, more 
credible, and more meaningful.
    On the codification note, you are right, there are lots of 
examples and certainly we have always said that one of the 
things to promote management initiatives that we have learned 
is that Congress needs to be a customer, a buyer, a client, and 
ultimately ground things in legislation. We have learned that 
in the 1990's with GPRA and CFO, and it has largely been 
successful.
    The questions I have about codifying PART is that it 
addresses a process at the heart of Presidential 
decisionmaking. There are real questions about how much you can 
standardize something like this across different 
administrations with necessarily different styles and different 
ways of wanting to hold itself accountable to the people. The 
closer you get to the heart of Presidential decisionmaking 
potentially the more difficult it would be to prescribe 
specific decisionmaking processes and frames for the President 
and his Office of Management and Budget to use.
    Having said that, if there were such an effort to go 
forward, I would tend to side more with the notion of having 
possibly a more generic process, one possibility that could be 
thought of rather than something prescriptive, is a process 
that would require the President to disclose the process he 
used in linking performance to budgeting in the budget cycle, 
and possibly having some criteria he might address, broad 
criteria, generic criteria such as how were related groups of 
programs addressed, what kinds of data were used, how was GPRA 
utilized in this process and things like that. That might 
become something that could be a foundation. But I would tread 
fairly warily in this area.
    Mr. Platts. Mr. Breul.
    Mr. Breul. I would agree with that. I don't see any need to 
amend the GPRA or similar statute at this time. I think you 
have to be very careful of the question of Presidential 
prerogative. The Budget Accounting Act of 1921 gives wide 
discretion to the President in this area and I think that is 
appropriately so. So I think you need to be very careful about 
framing anything that would be overly rigid or prescriptive.
    The other problem you have to take some care to look at is 
that legislating the PART or the tool itself will probably 
result in a bureaucratic exercise of filling out the PART. 
Bureaucracy can be good in terms of compliance, and I think it 
runs the risk of distracting people to focus on the tool and 
the process rather than real results. My inclination would be 
to lean toward the use of incentives. When program managers see 
that the White House and OMB or the Congress and appropriators 
are actually paying attention to results and are using it in 
the course of their decisionmaking, they will spend a lot more 
attention and devote more to improving program performance. So 
I would lean toward the use of incentives and having both the 
Congress and the executive pay attention to these matters 
rather than legislating it.
    Mr. McTigue. Can I just add two comments on that, Mr. 
Chairman? The first is just that in the process of governance 
there are two things that should always be preserved as the 
right of the political process, whether it is the 
administration or the Congress, and that is the right to choose 
what the government will be involved in, and the right to 
determine in what quantity it will be involved in. Those must 
always in my view be preserved to the political process. That 
is why we elect people to public office.
    For the legislature, it also is entitled to know and make 
judgments whether those choices made by the administration are, 
indeed, delivering the results that they predicted at the time 
that they made those choices. And that is why I think that the 
process you are going through now is valuable, but that it 
still has some maturing to go through. And that is that it is 
still extremely difficult for politicians to be able to compare 
a range of different activities focused on the one issue and 
make decisions whether or not they are producing results that 
are reasonable.
    In my experience for people in elected office, the more 
knowns you can put on the table, the easier it ultimately is to 
exercise the value judgment when you have to make decisions 
about funding this activity as opposed to that activity. And 
some improvement in this area I think would make it easier for 
the people in the political process to exercise their value 
judgment.
    Mr. Platts. I appreciate all three of your perspectives and 
I guess I asked the question because I think all of us agree on 
the benefits of PART, and it is putting more information, more 
known quantities of information on the table. But it could stop 
tomorrow under the current system because there are 
opportunities for other laws and things to be used. But as 
history showed for decades and decades, these other 
opportunities were not used even in the last 10 years under 
GPRA. They were not readily used until PART was created. And to 
ensure that beyond this administration, that we continue a more 
programmatic review is why I look at codification perhaps as 
being necessary.
    And while I have great respect for this administration in 
particular, and the discretion of any administration in how 
they manage a program, I also think that in the end any 
administration is going to be coming to the legislative body 
and saying we want you to appropriate funds for this program 
and it is the discretion of the legislative body to say if you 
want us to even consider that request, we need you to show us a 
program assessment of why it is a worthy program.
    So we are not saying you have to do it, unless you want 
money in the program. So it is kind of like the Federal 
Government regularly says to the States: You really don't have 
to do this, but if you want money from us to pay for it then 
yes, you do. So I don't see it as an excessive infringement but 
as a partnership between executive and legislative branches and 
each of us having discretion and in this case the executive 
branch having discretion of how to design that assessment, what 
should the criteria be and the implementation, but that they 
have to do it.
    Mr. Posner. If I could just provide historical perspective 
on this. I do understand the point. You take a couple of recent 
examples and the conventional wisdom is that these initiatives 
and reforms are short lived and doomed to fail. Take GPRA, 
which has been around 10 years and survived two administrations 
with different political parties and it has been used in the 
budget processes by OMB staff and agencies in both 
administrations for different kinds of purposes in diffferent 
ways to some extent, but I think that is a success story of how 
a performance initiative can gain credibility and become, you 
know, a part of the way we do business.
    Mr. Platts. That is statute.
    Mr. Posner. That is statute.
    Mr. Platts. And across administrations. Whether it would 
have survived a change of administration, you know, if there 
wasn't a statute I think is the question. And it goes to--and I 
think, Mr. McTigue, it might have been you that said it earlier 
about public scrutiny where you are competing kind of drives 
dotting the I's and crossing the T's a little bit more. And if 
you are in a program out there and you know that your review is 
5 years away and it is currently just an administrative 
decision that review is going to happen and there is an 
election between now and then and there may be another 
administration, you are maybe more likely to think, hey, we may 
not have to do that because it is an executive decision and 
there may be a different executive. If it is statutory, you 
know that it is going to take a change in law for you to be let 
off the hook. I think that puts more pressure today on you to 
get your house in order rather than waiting. It is a 
requirement of law. I see it from the people operating the 
programs having a greater incentive.
    I do want to get back, but I don't want to overextend my 
overtime with my questions. Actually over here, Mr. Towns, if 
you had a second round of questions.
    Mr. Towns. Well, particularly my thinking is along the same 
lines but I am looking at it from the intergovernmental 
situation where the program is being administered between the 
Federal, State and local governments of government. Classic 
example would be Medicaid. How do you deal with a situation 
like that? Because it is one thing to have an administration 
and another administration, but the point is that you are 
talking about different layers of government. To me that sort 
of changes the picture a great deal. I am not sure whether my 
thinking on this is correct or not, but it seems to me that 
these different levels also makes it very difficult to make it 
able to control in the fashion that we would like to control or 
get the kind of results or find out in terms of the information 
we need to have because they might not be structured in a way 
that we would be able to actually get the kind of information 
we need.
    And I am thinking because of the extent that was just made 
here, so I would like to get your comments on that, because I 
feel very uncomfortable with that process.
    Mr. Posner. I think you are right to point to the tensions 
here. Many Federal programs achieve their objectives not 
through Federal employees but through State, local governments, 
private contractors and nonprofits. And the question is do the 
goals that we are asserting for these programs get the buy-in 
of everybody in that system and that is a real challenge. 
Another challenge is how do you develop outcome measures for 
programs where you essentially have 50 programs like Medicaid. 
Or block grants in particular.
    And this is one of those challenges that is not in 
particular PART, it is a challenge whenever you try to measure 
outcomes of national programs that are not Federal but 
national. They are intergovernmental. And I think it is one of 
those things that has not frankly gotten enough attention in 
the system. It is one where I think different agencies are kind 
of struggling to figure out how to proceed.
    Mr. Breul. Last year the fiscal 2004 budget identified this 
area in which the PART scores and the evidence for grant 
programs was particularly weak. Grant programs overall showed 
weaker results than direct or regulatory or other programs. The 
OMB didn't have a particular answer, they just pointed out that 
was one of the observations that was clear from the first 20 
percent. I think we can look again this year and see if that is 
a continuing pattern and try to see what needs to be done.
    Mr. McTigue. I would make a slightly different comment. 
Where there are grant programs--and let's just take Medicaid--
the thing that should be measured is by how much did the health 
of these cohorts of people improve as a result of this activity 
being available? There should be much less dictation of how you 
would use the resources and much more focus on by how much did 
you improve the health of people. And I think that the problem 
is that normally at a Federal or a State level, there is too 
much dictation of how you use the money and insufficient 
flexibility granted to those who are working at the cutting 
edge of the recipients to be able to focus on this being the 
needs of this community and we should meet those needs.
    In this case it might be access to health care for young 
children and in another place it might be the elderly and the 
focus should be on showing us by how much you improved the 
quality of life or the health or the wellness, if that is 
actually a word, of that group of people. So if you move to an 
outcome measure as a result of giving grant moneys instead of a 
process measure I think you can expect to get better results.
    Mr. Towns. Thank you very much. Let me thank all of you. 
You have been very helpful. I yield back, Mr. Chairman.
    Mr. Platts. Thank you, Mr. Towns. I want to turn to the 
crosscutting issue and, Mr. Posner, start with you. In your 
recommendations one of them is to OMB to do more crosscutting 
analysis and comparing apples and apples. I think as good as 
PART is and can be, if you are comparing job training program A 
today, and 5 years from now you are comparing, analyzing job 
training program B, you cannot make truly an informed decision 
for the Federal Government as a whole, namely, this is a good 
program, but in comparison to this one it is not and we should 
have shifted the money.
    What response have you gotten from OMB on that specific 
recommendation if any? And is there a reason why they are not 
embracing that at this point in time?
    Mr. Posner. Well, I think it is fair to say that the letter 
that we printed in the report from Clay Johnson was very 
positive and very constructive, and I think their pledge to 
address the issues in the report and other issues continue to 
improve the process. On this particular question, the question 
of how you focus the decisionmaking process on programs that 
cut across agencies and even tools of government is it a 
chronic one. It has been a problem that is in our system 
frankly in the Congress as well as within the executive.
    We have created, I don't need to tell you, a host of 
programs, whether you are talking about wildfire, housing, 
trade promotion, we can go on and on, well-intentioned efforts 
to address programs but we don't think about the systemic 
relationships among them or think about how they compete with 
one another, as I said before, in addressing common outcomes. 
And frankly this is an area that PART could possibly address if 
it were more strategically focused. GPRA has a governmentwide 
performance plan that could be a vehicle to do this. We are 
still waiting to see this being taken more seriously and going 
forward.
    Mr. Platts. If we are looking at it from the GPRA 
perspective, that would be more that we have various agencies 
or departments set a part of their strategic goal, is economic 
development related and that issue will cross Agriculture, 
Transportation, Commerce, but we are still not going to get 
into GPRA a finite comparison of the actual dollars being 
committed to the broader strategies.
    Mr. Posner. The governmentwide plan, at one point OMB 
presented earlier a picture of the budget by what we call 
budget functions, the 19 major missions of government, where 
there was at least some discussion about how all the agencies 
are playing into a common set of goals say in the natural 
resource area or community development. That has the potential 
to be the kind of vehicle to start comparing and contrasting. 
That is what we are looking for, some kind of vehicle like 
that, and I think PART has the potential as well. This is one 
of those areas that each administration is going to have to 
kind of decide which areas it wants to focus on and how it 
wants to take this on but it is something that really is a 
potential that has not been realized yet.
    Mr. Platts. Before I get Mr. Breul and Mr. McTigue in this 
aspect, in the current budget there was from an analytical 
perspective some crosscutting analysis done. And if you have a 
comment on the benefit of that and is that a good starting 
point for what we are hoping OMB will do with PART?
    Mr. Posner. Well, as I looked at--the analytic perspective 
has something called crosscutting. Most of the chapters were 
things they have done every year, focusing on grant programs 
and credit programs and things like that, which are useful 
compendiums but they are not really programmatic.
    One useful analysis was the homeland security area which 
really was first triggered by an act of Congress several years 
ago requiring OMB to report every year on all the programs 
throughout government--this was before the Department was 
created--that address homeland security. And I think usefully 
the analysis in the budget at least here brings together over 
30 agencies and shows you the relative contributions in 2004 
and 2005, addressing most importantly not just the fiscal 
analysis, but shows the six strategic areas and strategic goals 
in the national homeland security plan and talks about how the 
different agencies are addressing and playing into those. That 
is the basis now for crosscutting analysis, potentially.
    Mr. Platts. Mr. Breul and McTigue, if you wanted to address 
the broad issue, and maybe the benefits of crosscutting, and a 
second part is if we continue to take the OMB approach that 
we're looking at all thousand or so programs, does OMB have the 
resources to be able to do this in an effective means or is it 
all the more important that we are strategic in what programs 
are run through the PART process?
    Mr. Breul. I think you have hit a very important question 
here, and that has a couple of competing tensions. One, of 
course, is that you don't want to let any program in the 
government escape this analysis. And for that reason working up 
toward the end or at least other tranche or 2 of 20 percent is 
important so we get rather complete coverage.
    But turning around and having a focus on related and 
crosscutting programs is very important. I think OMB has 
recognized that and as they begin to catch up and do reviews 
and go back and look at programs, that will happen more and 
more because the OMB has traditionally done that as part of the 
budget process. It has recognized that as an important element, 
whether they are looking at homeland security, wetlands, 
research and development, climate change. Crosscutting issues 
are, in fact, the way you get a very powerful look at competing 
ways of realizing an objective and agencies that are doing much 
the same thing in different organizations.
    So I think it is a very powerful way of looking at things. 
The subtlety that has to be remembered though is that some of 
these programs--the first is there are programs that are 
clearly in competition with one another. There are programs 
that are doing the same thing the same way. There are other 
programs that are really alternatives to one another. They may 
be doing the same thing, but they are doing it a different way. 
And you are going to find some programs operating in parallel. 
They are doing the same thing but they are doing it for 
different populations or regions or areas of the country.
    And finally there are going to be some programs that are 
complementary, where for a particular endeavor you need a 
little bit of this and that, and only in combination do they 
yield you the results that you want. The notion of crosscutting 
has an immediate appeal that you can kind of sort out with 
immediacy. Really, what it is really is another set of 
information that enriches the debate and gives you far more 
perspectives and a different set of prisms to look at that set 
of problems and more to think about as you make the management 
and budget decisions.
    Mr. Platts. Mr. McTigue, your focus on the public benefits 
derived or produced seems that this would be all the more 
important of achieving the most accountability when we talk 
about benefits. And I look at some of the numbers, economic 
development programs, 300 different economic development 
programs, 300 programs serving at-risk youth, 90 childhood 
development. I mean, the list goes on. To make an informed 
decision we need to have all of those apples together.
    Mr. McTigue. Right. My comment, Mr. Chairman, would be 
this. I think it was fair and reasonable for OMB to take a 
random sampling of programs when it first started to use the 
program assessment rating tool across a variety of activities 
that give them an indication of how useful this process was and 
how it needed to be improved. But in the long term I think that 
rather than picking out programs, they should pick out outcomes 
and decide we will look at all of the programs that address 
adult literacy or all the programs that address child literacy 
or employability among this group of people. Then of course 
what you are really doing is you are starting to look at where 
do we have the best results for which delivery organizations 
and with which programs.
    There is a risk in doing that, that has to be addressed at 
the same time. And that is that few programs have only one 
outcome. Most of them address a primary outcome and then will 
have second and third tier outcomes. It might be a program 
designed to address employability but it might be employability 
for socially disadvantaged people and people with a high risk 
of criminality. So if you are very effective in diminishing 
their criminality, that may outweigh the performance in all the 
other areas.
    Looking at the spectrum of the program and weighing it up 
when you go to outcome based scrutiny is important and critical 
before you make decisions. But ultimately it is the only way 
you can start to look at that spectrum of activity and say here 
are areas among the 90 programs where we have high levels of 
effectiveness. Here are areas where we have moderate levels of 
effectiveness, and here are areas where we have low levels.
    A device that was used in the government that I was part 
of, was that in doing that we used to decide that we would 
maintain at the very least the current level of public benefit. 
So if we were doing employability programs, we were going to 
maintain this number of people placed into employment during 
the ensuing year. And then we would look at parts of native 
people, how many of them, how many would be long-term 
unemployed and how many with disabilities, etc. What you 
started to construct is this is what government expects to get 
for the investment it makes in a program designed to impact 
employability. And then you can look at the resource. And in 
many instances, the resource required to maintain that current 
level of public benefit was significantly less than what we had 
been spending across the range of say hypothetically the 90 
programs.
    Mr. Platts. You are eliminating the overhead of all of 
those different programs and really consolidating the service 
provided?
    Mr. McTigue. What you are also focusing on is the cost per 
unit of success. Can we maximize the number of people we will 
place back into work at the lowest possible price? But also 
recognizing that we are still going to maintain the public 
benefit for at-risk people, people with previous criminal 
records or whatever it might be.
    Mr. Platts. Mr. Towns, did you have other questions?
    OK. Is it a fair assumption, Mr. McTigue, that with the 
initial look at all the different programs, would you suggest 
that OMB go through the entire 5-year review of every program 
to establish a baseline for all programs and then move into 
this maybe outcome-based approach? Or do you think we should be 
looking at that sooner?
    Mr. McTigue. If I were making the decision, I would move 
almost right away to looking at it through outcomes. I think 
that in terms of the best interests of budget preparation, 
being able to say we have examined the whole cohort of programs 
that address issues like employability is much more valuable 
when you make budget allocations than saying we have looked at 
20 percent of them because the 20 percent of them that you look 
at might be the best performers or the worst performers. They 
are probably going to be a mix.
    I think the testing of the tool and the utility of 
critically looking at what is declared to be the performance of 
a program has been proven. That is useful. Now trying to make 
that tool perform much more effectively for the interests of 
both Congress and the administration would say let's start to 
look at all of the activities across government that address 
this issue. If it is security, then let's look at all the 
things across security, see the ones that have the greatest 
impact on diminishing risk and the ones that have only marginal 
impact on diminishing risk.
    Mr. Platts. When I look at some of the results of the PART 
assessments and saying effective recommendation is this goes to 
another program which we think is more effective, if you 
haven't done PART on all of those other programs how do you 
actually know that it is more effective in the criteria in 
comparison to this specific criteria unless you have done them 
all together? I share the position that the sooner the better 
to make it all the more effective and, in the end, used. I 
mean, you can have the information, but what we are really 
after is this information be acted upon and that crosscutting 
of assessments is critical to it actually being used by 
Congress and the administration. Did anyone want to add on that 
issue?
    I was curious, Mr. Posner, what your interactions with OMB 
and just the process that OMB is going through, first round, 
234 and then coming back roughly a third of those for a second 
round. Was there any explanation shared with GAO on how and why 
they chose that specific third for a second versus the other 
ones that were reviewed?
    Mr. Posner. Well, we focused our review on the 2004 process 
because that was public and there was a longstanding issue 
about predecisional information.
    Mr. Platts. Report is on 2004, but in your new actions have 
you had any dialog about going into the 2005 where they say 
this time we're going to do these 80 or so?
    Mr. Posner. What I think we captured is not the specific 
decisions because those are somewhat delegated to the RMOs, 
even the major functions areas in OMB to decide, but I think we 
noted some changes in the process that are notable. I think we 
learned a lot in 2004. One is the process was moved up. It 
became a spring process rather than crunched into the budget 
season like it had to be in 2004. There was some training done 
and there were some refinements in the instrument that were 
modified, questions and things like that, some additional 
guidance and the like.
    So those are the things that we picked up. There were some 
changes made in how the reviews were followed up and things 
like that that were done.
    I think that it still remains to be seen. We haven't really 
taken a look at the 2005 selections and really understood--we 
have seen what is in the press and what is on the Web, but at 
this point, that is what we have.
    Mr. Platts. And kind of a followup question--maybe it is 
premature as well because it relates to the--well actually it 
is 2004 and I guess 2005 in the sense of the funding decisions 
that were made in 2004--have you been able to look at the logic 
of the PART on these programs and say this is ineffective and 
we recommend defunding and this is what happened? Is there a 
good feel for the logic in your opinion of how those 
recommendations were or were not followed?
    Mr. Posner. I think what is important is when OMB stated 
absolutely appropriately that there is no formulaic approach to 
this process. Performance budgeting is not about a mechanical 
link between performance trends and budget decisions. If the 
program does poorly and it is a high priority, it doesn't 
necessarily mean you are going to reduce funding. In fact you 
might find cause to increase funding. If the drug abuse deaths 
go up you might need to increase funding. This information 
needs to inform the agenda, the questions you ask. It doesn't 
necessarily tell you the answers on a budget decision because 
there are lots of other factors that are involved, and that is 
what we found. There was a relationship, I think it is fair to 
say, and we have some information in the report showing that 
the programs deemed effective generally did better in the 2004 
process and the programs deemed ineffective generally did 
worse. But there was not a tight relationship nor should there 
be.
    I think what is more significant is what we found--and this 
is consistent with the observations about performance budgeting 
in States and other areas--is that the real impact that this 
information is having, at least initially, is not so much on 
funding levels because they are determined by so many other--
further, as I say, it is on the management and design of 
programs. And when you look at the kinds of things that came 
out of the 2004 process, 80 percent of those recommendations 
focused on measures, goals, the program design, shifting from 
one kind of grant process to another to try to get more bang 
for the buck out of these programs. That is what you would 
expect properly.
    Mr. Platts. With that benefit being in the 2004, 80 percent 
being more the management, worst case scenario, we don't get a 
crosscutting analysis, Congress is not very dutiful in actually 
using the information in the appropriations process. It seems 
that the PART process still would have a tremendous benefit 
because even though you are going to have 300 different 
economic development programs, hopefully they will be better 
run and more effective individual programs from the management 
of those because of PART. Is that a fair statement?
    Mr. Posner. I think that is right. We hope it is beyond 
that, with the major caveat that there is a significant 
followup that has to be done and some monitoring. We would like 
to see more of it and some of these things call for 
congressional action, frankly, in the area of foster care and 
things like that. But, yes, I think that is right there, is a 
substantial value right there.
    Mr. Platts. And maybe a broad question that comes back when 
you talked about appropriators earlier is one of the 
recommendations about OMB, I think having more of an education 
process with Congress. What do you see along those lines from 
OMB and GAO's perspective?
    Mr. Posner. We have seen some effort made recently to brief 
Congress and a number of committees about the results of the 
2005 process. I think what--rather than kind of evaluate or 
comment on what OMB has done recently because we just don't 
know everything they have been doing, I think what we are 
calling for is a process of proactive involvement by the 
Congress at the front end of these things. What we are saying 
is that even though it supports a Presidential process to get 
the broad base that you need to establish the support, you are 
going to have to gain the input of the appropriators and the 
authorizers and the overseers in deciding what the reviewing 
are going to be all about. Basically, that is a challenge 
frankly to the Congress as well as to OMB. OMB may have to 
change its own style and procedures of a budget process that is 
inherently executive related.
    We have already seen some information that is much more 
than we ever saw before in this regard. Congress may have to 
kind of think more clearly about how it is going to organize 
itself more comprehensively to address this. Some of us have 
thought about what Congress was presented with in the 1970's 
when the President had a comprehensive budget and the budget 
process and Congress didn't have a budget process at the time. 
And it was challenged to address a President that saw both 
sides of the budget when Congress didn't do that.
    Congress stepped up to the plate and developed the 
Congressional Budget Act. The question is whether we are seeing 
something similar evolve here. The President is already on the 
road to developing a comprehensive performance assessment and 
perspective on government and governance, and how Congress is 
going to position itself to deal with that information.
    Are we going to create a more consolidated or systematic 
way to digest and respond to that as a body? Are we going to do 
it in a disaggregated way that is more familiar? That is the 
decision that you are going to decide, obviously. That is the 
challenge. What we are seeing is the potential to have that 
same kind of challenge develop here.
    Mr. Platts. And you reference Homeland Security and 
comparing in the budget analysis the various assignments or 
goals, and you look at how many different committees and 
subcommittees that one department answers to up here as far as 
trying to streamline the view of what it is doing, whether it 
is most effective. With Secretary Ridge being my former 
Governor and someone I have great respect for, what a challenge 
for the Secretary to be answering to 80 committees and 
subcommittees in total. I think you are right on long term. As 
the executive branch is kind of reorganized there is a need for 
Congress to try to work hand in hand.
    We are going to be running short on time. One of the 
questions is how this could be used with authorization programs 
or reauthorization or sunsetting of programs. Mr. Breul, you 
touched on that I think as part of your testimony. There have 
been a number of proposals about sunset commissions being 
established to make a determination or recommendations about 
sunsetting programs.
    If PART is as effective as we hope it will be long term. 
The question is, is it in essence going to fulfill that role in 
that the information by PART can be used and there won't be a 
need for these kind of independent sunset commissions?
    Mr. Breul. Well, what PART will help do is provide the 
analytic basis to make some decisions. Then the decisionmaking 
body and the commitment to actually go through and make the 
determination one way or another is not something the PART 
alone will fill. But it does provide one set of lenses to judge 
program management and then the actual results that are 
achieved, and that is very important information in any kind of 
sunset decision.
    Mr. Platts. OK.
    I think we are going to wrap up there. I wanted to give 
each of you an opportunity if there is anything you wanted to 
add based on the Q and A period. Mr. McTigue.
    Mr. McTigue. Can I just add one component to what is the 
long-term impact on appropriators going to be? And in my view 
probably 2 or 3 years from now, the fact that this information 
exists, how effective is this program compared to that program 
will enable us, the public, to be able to say there was a very 
significant benefit foregone. You could have placed 5 million 
people into work and you placed 2\1/2\ million people into 
work. Mr. Appropriator, why did you vote to not give those 
people jobs?
    Information will not stand alone. Once it is produced it 
will be used by a number of people in different ways and bring 
accountability to the political process itself. There would be 
very good reasons for making those decisions but politicians 
will have to make those reasons transparent.
    Mr. Platts. Very important point. Because as you work with 
the Government Accoutability Project, this information being so 
public, and as Mr. Breul talked about the CD-ROM that it is out 
there in an unprecedented fashion, is not just about executive 
branch, it isn't just about Congress, but about other groups 
such as your own effort being able to hold us accountable.
    And the accountability we talked about the program manager 
applies to the elected officials as well and this information 
will ensure--and we better be ready with our whys--why we voted 
against it or why we voted for it--when that information is 
available and acted upon.
    I want to finally, again, thank each of you. Great 
testimony, both written and your oral testimonies here today 
and really assisting our committee and both members and staff 
as we move forward on this and try to really help push the 
process along with the administration. My sincere gratitude to 
each of you. And I know that there is a lot of preparation time 
that goes into this 2-hour block here today that is well beyond 
2 hours. So thank you.
    I also want to thank both majority and minority committee 
staff for their work in preparing for this hearing. And the 
record will remain open for 2 weeks from this date for those 
who want to submit additional information for the hearing and 
for possible inclusion. And everybody have a good day. This 
hearing stands adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
